		
	
	
	
	
           ASSESSMENT	REPORT	
                 14‐20	
                    	

	
                       	
                       	
     Webtrust	for	Certification	Authority	
           September	12,	2014	
                       	
	
	
	

                       	
	
	
	
	
Date	 	
September	12,	2014	
To	     	
Chief	Information	Officer	
From	
Inspector	General	
Subject	
Assessment	Report	‐	Webtrust	for	Certification	Authority	
Report	Number	14‐20	
	
Enclosed	please	find	the	subject	final	report.		The	Office	of	the	Inspector	General	
administered	a	contract	with	Ernst	&	Young	LLP	(E&Y)	to	provide	an	opinion	on	the	
Government	Printing	Office’s	(GPO)	assertions	regarding	their	certification	
authority	process	for	July	1,	2013	through	June	30,	2014.		E&Y	conducted	their	work	
in	accordance	with	attestation	standards	established	by	the	American	Institute	of	
Certified	Public	Accountants.		
	
E&Y	concluded	that	GPO’s	assertion	is	fairly	stated	in	all	material	respects.		E&Y	is	
responsible	for	the	attached	report	and	the	opinion	expressed	therein.			
	
 We	appreciate	the	courtesies	extended	to	E&Y	and	to	our	audit	staff.	 If	you	have	
 any	questions	or	comments	about	this	report,	please	do	not	hesitate	to	contact					
 Mr.	Jeffrey	C.	Womack,	Assistant	Inspector	General	for	Audits	and	Inspections	at	
 (202)	512‐2009	or	me	at	(202)	512‐0039.	
 	


                                    	
Michael	A.	Raponi		
Inspector	General		
	
Enclosure		
cc:		
Public	Printer	
Deputy	Public	Printer		
General	Counsel	
Chief	of	Staff	
Chief	Administrative	Officer	
U.S. Government
Printing Office

Report of Independent Accountants
WebTrust for CA
For the Period July 1, 2013 to June 30, 2014
                                           Table of Contents


Report of Independent Accountants ....................................................................... 1
Management Assertion ......................................................................................... 3




1308-1122712
                                        Ernst & Young LLP           Tel: +1 703 747 1000
                                        Westpark Corporate Center   Fax: +1 703 747 0100
                                        8484 Westpark Drive         ey.com
                                        McLean, VA 22102




                                                     Report of Independent Accountants


 To the Inspector General of the United States Government Printing Office and the Management
 of the United States Government Printing Office Certification Authority:

   We have examined the assertion by the management of the U.S. Government Printing Office
   (GPO) that in providing its Certification Authority (CA) services known as GPO Public Key
   Infrastructure Certification Authority (GPO-CA) in Washington, D.C. for the Principal CA: GPO-
   PCA and the Subordinate CA: GPO – SCA during the period July 1, 2013 through June 30,
   2014, management of GPO has:

          disclosed its Business, Key Life Cycle Management, Certificate Life Cycle Management,
           and CA Environmental Control practices in its

                o      Certification Practice Statements, and
                o      Certificate Policy

          maintained effective controls to provide reasonable assurance that

                o      GPO’s Certification Practice Statements are consistent with its Certificate Policy
                o      GPO provides its services in accordance with its Certificate Policy and Certification
                       Practice Statements

          maintained effective controls to provide reasonable assurance that

                o      the integrity of keys and certificates it manages is established and protected
                       throughout their life cycles;
                o      the integrity of subscriber keys and certificates it manages is established and
                       protected throughout their life cycles;
                o      the Subscriber information was properly authenticated; and
                o      subordinate CA certificate requests are accurate, authenticated, and approved

          maintained effective controls to provide reasonable assurance that

                o      logical and physical access to CA systems and data is restricted to authorized
                       individuals;
                o      the continuity of key and certificate management operations is maintained; and
                o      CA systems development, maintenance, and operations are properly authorized
                       and performed to maintain CA systems integrity

   for the CA services known as GPO-CA, based on AICPA/CICA Trust Services Criteria for
   Certification Authorities.


                                                                                                           1
A member firm of Ernst & Young Global Limited
   GPO’s management is responsible for its assertion. Our responsibility is to express an opinion
   on management’s assertion based on our examination.

   Our examination was conducted in accordance with attestation standards established by the
   American Institute of Certified Public Accountants, and accordingly, included (1) obtaining an
   understanding of GPO’s key and certificate life cycle management business practices and its
   controls over key and certificate integrity, over the authenticity and privacy of subscriber and
   relying party information, over the continuity of key and certificate life cycle management
   operations, and over the development, maintenance, and operation of systems integrity;
   (2) selectively testing transactions executed in accordance with disclosed key and certificate
   life cycle management business practices; (3) testing and evaluating the operating
   effectiveness of the controls; and (4) performing such other procedures as we considered
   necessary in the circumstances. We believe that our examination provides a reasonable basis
   for our opinion.

   The relative effectiveness and significance of specific controls at GPO and their effect on
   assessments of control risk for subscribers and relying parties are dependent on their
   interaction with the controls, and other factors present at individual subscriber and relying
   party locations. We have performed no procedures to evaluate the effectiveness of controls
   at individual subscriber and relying party locations.

   Because of the nature and inherent limitations of controls, GPO’s ability to meet the
   aforementioned criteria may be affected. For example, controls may not prevent, or detect
   and correct, error, fraud, unauthorized access to systems and information, or failure to
   comply with internal and external policies or requirements. Also, the projection of any
   conclusions based on our findings to future periods is subject to the risk that changes may
   alter the validity of such conclusions.

   In our opinion, for the period July 1, 2013 through June 30, 2014, GPO management’s
   assertion, as set forth in the first paragraph, is fairly stated, in all material respects, based on
   the AICPA/CICA Trust Services Criteria for Certification Authorities.

   The WebTrust SM/TM seal of assurance for Certification Authorities on GPO’s web site
   constitutes a symbolic representation of the contents of this report and it is not intended, nor
   should it be construed, to update this report or provide any additional assurance.

   This report does not include any representation as to the quality of GPO's services beyond
   those covered by the Trust Services Criteria for Certification Authorities, nor the suitability of
   any of GPO’s services for any customer's intended purpose.




   August 21, 2014




                                                                                                        2
A member firm of Ernst & Young Global Limited
EY | Assurance | Tax | Transactions | Advisory


About EY
EY is a global leader in assurance, tax, transaction and advisory
services. The insights and quality services we deliver help build trust
and confidence in the capital markets and in economies the world
over. We develop outstanding leaders who team to deliver on our
promises to all of our stakeholders. In so doing, we play a critical role
in building a better working world for our people, for our clients and
for our communities.
EY refers to the global organization and may refer to one or more of
the member firms of Ernst & Young Global Limited, each of which is a
separate legal entity. Ernst & Young Global Limited, a UK company
limited by guarantee, does not provide services to clients. For more
information about our organization, please visit ey.com.
Ernst & Young LLP is a client-serving member firm of
Ernst & Young Global Limited operating in the US.
© 2014 Ernst & Young LLP.
All Rights Reserved.
BSC No. 1408-1307304
ED none
